  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General



            Audit of Targeting Oceangoing
                   Cargo Containers
               (Unclassified Summary)




               Office of Audits
OIG-05-26                              July 2005
                                                                Office of Inspector General

                                                                U.S. Department of Homeland Security
                                                                Washington, DC 20528




                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared by our office as part of our DHS oversight responsibilities to
promote economy, effectiveness and efficiency within the department.

This report represents an abbreviated version of our official use only report assessing the
Automated Targeting System used by Customs and Border Protection inspectors at
domestic and selected foreign ports to help select intermodal cargo containers for
inspection. It is based on interviews with employees and officials of government
agencies and private trade representatives, direct observations, and a review of applicable
documents.

The information contained in this report has been developed to the best knowledge
available to us, and had been discussed in draft with appropriate management officials. It
is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                                Richard L. Skinner
                                                Acting Inspector General
                                                                                         Audit
OIG                                                                                      Report
    Department of Homeland Security
    Office of Inspector General

    Introduction
    The Bureau of Customs and Border Protection (CBP) has a leading position within the Department
    of Homeland Security in preventing terrorists and weapons of mass destruction (WMD) from
    entering the country. As part of this responsibility, CBP has a mission to address the vulnerability
    of the global supply chain to terrorists’ exploitation of the massive movement of oceangoing
    containers. Approximately 9 million oceangoing cargo containers arrive annually at seaports in
    the United States making it impossible to physically inspect each container without hampering the
    flow of commerce. Inspectors both at overseas Container Security Initiative (CSI) ports and at
    U.S. seaports, use the Automated Targeting System (ATS) to assess the risk associated with each
    container and determine which containers will undergo inspections.

    The audit was performed in response to Section 809(g) of the Coast Guard and Maritime
    Transportation Act of 20041, which requires us to evaluate and report annually on the
    effectiveness of the cargo inspection targeting system for international intermodal cargo
    containers. For this initial report, we focused on the following questions regarding the ATS:

             •     What are the major vulnerabilities in the supply chain relative to oceangoing
                   containers?

             •     How could the targeting of high-risk containers be improved?

    Background

    Problems associated with the physical control over containers and effective targeting and
    inspections have been addressed in various reports and studies. The Department of the
    Treasury OIG found weaknesses in targeting data, targeter training, inspectional reporting, and
    container security. In addition, a Government Accountability Office report (GAO-04-352NI,
    February 2004) discussed problems associated with container targeting and tracking, and
    inspector training, and made eight recommendations in those areas that CBP is currently
    addressing.

    Inspectors assigned to seaports use the ATS to assist them in determining which containers
    entering the country will undergo inspection. CBP inspectors perform either non-intrusive

1
    Public Law 108-293, enacted on August 9, 2004.


                                                                                                    Page 1
examinations, intrusive (physical) inspections, or a combination of both, as determined
necessary. A non-intrusive examination generally includes use of an X-ray or gamma ray
machine to identify anomalies in the container’s contents, radiation detectors, and/or a canine
to search for narcotics or explosives. An intrusive inspection generally involves a partial or
total removal of the contents of a container.

This audit was performed at various DHS locations within the Washington, D.C. area, three
major U.S. ports, and included discussions with other government agencies as well as private
trade representatives, and covered transactions and procedures current as of December 2004.
We also incorporated the results of our review of inspection reporting at three additional ports.
We gathered data through structured interviews, document analysis, data collection
instruments, and observation of operations. We documented the physical movement of cargo
from original loading (stuffing) of the container to entry release, and identified controls
maintained throughout the process. We identified other programs and initiatives by either CBP
or other agencies that provide controls over the movement of containers and identified control
weaknesses, along with any future plans to address these weaknesses. We analyzed the
completeness and quality of the information used to develop targeting rules and how the rules
are applied. We also tested the completeness and accuracy of reported exam results and
statistics.


Executive Summary
The supply chain relative to oceangoing containers can be separated into three major segments:
overseas, which includes manufacturing, warehousing, transporting, and loading of the product
into a container and on board a ship; transit at sea; and U.S. ports. Each of these segments
presents its own vulnerabilities. However, the overseas segment of the supply chain is the
most problematic since it includes all initial handling and movement of the containers from the
loading of the container (stuffing) to placing the container on-board a U.S. bound vessel, and is
outside the jurisdiction of the U.S. Government. Improved security over this segment of the
supply chain requires leveraging the authority of foreign governments through diplomacy.

To reduce the possibility of containers being used to transport WMD into the U.S., CBP
implemented CSI and Customs and Trade Partnership Against Terrorism (C-TPAT) program.
The Government Accountability Office recently issued reports on both CSI and the C-TPAT
program.

We concluded that improvements were needed in the data to which ATS targeting rules are
applied, and the use of examination results to refine the ATS targeting rules. Also, physical
controls over containers selected for examination needed improvement. We made several
recommendations for improvement. CBP concurred with all recommendations.




                                                                                                  Page 2
Appendix
Report Distribution



Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Under Secretary, Border and Transportation Security
Commissioner of Customs and Border Protection
DHS Audit Liaison
DHS Public Affairs
CBP Audit Liaison


Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




                                                                 Page 3
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
